<html>
<title> - SAFE & DECENT? EXAMINING THE CURRENT STATE OF RESIDENTS' HEALTH AND SAFETY IN HUD HOUSING</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                      SAFE & DECENT? EXAMINING THE
                      CURRENT STATE OF RESIDENTS'
                    HEALTH AND SAFETY IN HUD HOUSING

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON HOUSING,
                         COMMUNITY DEVELOPMENT,
                             AND INSURANCE

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 20, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-68
                           
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
42-476 PDF                  WASHINGTON : 2020                    
          
--------------------------------------------------------------------------------------




                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             ANN WAGNER, Missouri
GREGORY W. MEEKS, New York           PETER T. KING, New York
WM. LACY CLAY, Missouri              FRANK D. LUCAS, Oklahoma
DAVID SCOTT, Georgia                 BILL POSEY, Florida
AL GREEN, Texas                      BLAINE LUETKEMEYER, Missouri
EMANUEL CLEAVER, Missouri            BILL HUIZENGA, Michigan
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                SCOTT TIPTON, Colorado
JOYCE BEATTY, Ohio                   ROGER WILLIAMS, Texas
DENNY HECK, Washington               FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
RASHIDA TLAIB, Michigan              TED BUDD, North Carolina
KATIE PORTER, California             DAVID KUSTOFF, Tennessee
CINDY AXNE, Iowa                     TREY HOLLINGSWORTH, Indiana
SEAN CASTEN, Illinois                ANTHONY GONZALEZ, Ohio
AYANNA PRESSLEY, Massachusetts       JOHN ROSE, Tennessee
BEN McADAMS, Utah                    BRYAN STEIL, Wisconsin
ALEXANDRIA OCASIO-CORTEZ, New York   LANCE GOODEN, Texas
JENNIFER WEXTON, Virginia            DENVER RIGGLEMAN, Virginia
STEPHEN F. LYNCH, Massachusetts      WILLIAM TIMMONS, South Carolina
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                  Subcommittee on Housing, Community 
                       Development, and Insurance

                   WM. LACY CLAY, Missouri, Chairman

NYDIA M. VELAZQUEZ, New York         STEVE STIVERS, Ohio, Ranking 
EMANUEL CLEAVER, Missouri                Member
BRAD SHERMAN, California             BLAINE LUETKEMEYER, Missouri
JOYCE BEATTY, Ohio                   BILL HUIZENGA, Michigan
AL GREEN, Texas                      SCOTT TIPTON, Colorado
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
CAROLYN B. MALONEY, New York         DAVID KUSTOFF, Tennessee
DENNY HECK, Washington               ANTHONY GONZALEZ, Ohio
JUAN VARGAS, California              JOHN ROSE, Tennessee
AL LAWSON, Florida                   BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas, Vice Ranking 
CINDY AXNE, Iowa                         Member
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    November 20, 2019............................................     1
Appendix:
    November 20, 2019............................................    35

                               WITNESSES
                      Wednesday, November 20, 2019

Cabrera, Orlando, Partner, Arnall Golden Gregory LLP.............    12
Collins, Geraldine, President, National Alliance of HUD Tenants 
  (NAHT).........................................................     9
Rivers, Shalonda, President, Cordoba Courts Tenants Association, 
  and Board of Directors, National Low Income Housing Coalition..    11
Rollins, Susan, Executive Director, Housing Authority of St. 
  Louis County...................................................     4
Salazar, Margaret, Executive Director, Oregon Housing and 
  Community Services Department, and Secretary/Treasurer, 
  National Council of State Housing Agencies.....................     6
Thrope, Deborah, Deputy Director, the National Housing Law 
  Project........................................................     7

                                
                                APPENDIX

Prepared statements:
    Cabrera, Orlando.............................................    36
    Collins, Geraldine...........................................    42
    Rivers, Shalonda.............................................    58
    Rollins, Susan...............................................    77
    Salazar, Margaret............................................    83
    Thrope, Deborah..............................................    90

              Additional Material Submitted for the Record

Clay, Hon. Wm. Lacy:
    Written statement of GAO.....................................    99
    Written statement of Health Justice Advocacy Clinic, Columbia 
      Law School.................................................   118
    Additional information regarding Ms. Rivers' issues at 
      Cordoba Courts Apartments..................................   131
Tlaib, Hon. Rashida:
    ``Under Ben Carson, more families live in HUD housing that 
      fails health and safety inspections''......................   150

 
                      SAFE & DECENT? EXAMINING THE
                      CURRENT STATE OF RESIDENTS'
                    HEALTH AND SAFETY IN HUD HOUSING

                              ----------                              


                      Wednesday, November 20, 2019

             U.S. House of Representatives,
                           Subcommittee on Housing,
                             Community Development,
                                     and Insurance,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2128, Rayburn House Office Building, Hon. Wm. Lacy Clay 
[chairman of the subcommittee] presiding.
    Members present: Representatives Clay, Velazquez, Cleaver, 
Beatty, Green, Vargas, Lawson, Tlaib, Axne; Stivers, 
Luetkemeyer, Huizenga, Tipton, Zeldin, Kustoff, Gonzalez of 
Ohio, Rose, Steil, and Gooden.
    Ex officio present: Representative Waters.
    Also present: Representative Pressley.
    Chairman Clay. The Subcommittee on Housing, Community 
Development, and Insurance will come to order. Without 
objection, the Chair is authorized to declare a recess of the 
subcommittee at any time. Also, without objection, members of 
the full Financial Services Committee who are not members of 
this subcommittee are authorized to participate in today's 
hearing.
    Today's hearing is entitled, ``Safe & Decent? Examining the 
Current State of Residents' Health and Safety in HUD Housing.''
    I now recognize myself for 4 minutes to give an opening 
statement.
    For decades, the Department of Housing and Urban 
Development (HUD) has ensured that millions of Americans have a 
safe, decent, and affordable place to call home. However, 
today, many residents face ongoing issues with the physical 
conditions of their homes due to chronic underfunding, 
insufficient HUD oversight and enforcement, and lack of 
compliance with HUD requirements by some landlords 
participating in HUD programs.
    While the majority of public and assisted housing is safe 
for its residents, increasingly, these properties are aging and 
require capital investments and improvements to ensure that 
residents live in safe environments. Today's hearing will 
examine what HUD has done, review some of the current problems, 
and most importantly, look at ways we can come together to help 
HUD better serve communities, like the one that I represent, 
Wellston, Missouri, in St. Louis County; or Cordoba Courts in 
Opa-Locka, Florida; and the over 100 public housing 
developments in New York City.
    I was encouraged to read the testimony of St. Louis' own 
Susan Rollins, who spoke about the importance of housing on 
health outcomes from the perspective of someone working in the 
trenches every day to provide low-income families with safe and 
decent housing.
    However, Ms. Rollins' job gets harder by the year as 
Congress continues to underfund the public housing program. As 
a result, more families are now being forced to live in 
conditions that no one should have to face. In fact, last year, 
funding for public housing repairs had fallen 35 percent since 
the year 2000, and more than 10,000 public housing homes are 
lost each year due to disrepair. Increasingly, public housing 
authorities are being pushed by HUD to get rid of their public 
housing stock altogether, leaving some communities without a 
critical resource to address their most pressing housing needs.
    I am looking forward to hearing more from Ms. Rollins and 
the rest of the panel as far as your efforts to ensure that 
families in Wellston and throughout my district are taken care 
of as a county, and how HUD will determine what to do with 
public housing properties that require almost $14.5 million in 
repairs.
    I also look forward to hearing testimony from our 
witnesses, who include not only policy experts and government 
officials, but also HUD tenants, who have seen and 
unfortunately had to live in deplorable living conditions. And 
I am hopeful that we will learn from this conversation the ways 
in which we can ensure that tenants receiving assistance from 
HUD do not have to live in homes that harm their health and 
make them sick.
    I now recognize the ranking member of the subcommittee, Mr. 
Stivers, for his opening statement.
    Mr. Stivers. Thank you, Chairman Clay. I want to thank you 
for scheduling this hearing today. I think it is a really 
important issue that needs examination. Today's hearing will 
focus on the quality of HUD's housing stock, ranging from 
properties operated by our public housing authorities, to units 
rented through portable housing choice vouchers.
    Ensuring Americans occupy homes that are decent, safe, 
sanitary, and in good repair is not only a bipartisan goal 
shared by members of this committee and the entire Congress, it 
is the law, and it has been the law for decades.
    This hearing today, I think, is important to demonstrate 
the serious shortcomings in the quality of HUD housing, often 
accompanied by failures of management and always resulting in 
worse outcomes for residents' health, education, and job 
prospects. In response, I expect some of my colleagues may 
focus their attention on the unmet capital improvements that 
are out there, and I think that is important.
    I am the co-Chair of the Public Housing Caucus, and I am 
not blind to the capital backlog, and I acknowledge that it 
absolutely deserves examination, but it is probably an 
oversimplification to argue that it is the only issue here. I 
think there are a lot of issues. We need to look at the bigger 
picture.
    For example, in communities across this country, the supply 
of housing and rental units is not keeping up with demand. In 
Franklin County, which I represent in Ohio, that shortage is 
50,000 units. As a result, many families are spending more of 
their income on housing, and many relying on housing vouchers 
may be priced entirely out by this competition or forced to 
live in the kinds of poorly-maintained properties that we are 
going to discuss today, and that is wrong.
    We know that some potential solutions exist, and I want to 
listen to any solutions that you may have. But increasing the 
overall supply and enhancing the Low-Income Housing Tax Credit 
(LIHTC) is an important option that we absolutely need to look 
at.
    Encouraging inclusive zoning and building codes is also 
important.
    I think we need to look at what we should not do, and that 
is things like harmful rent control policies that could 
actually cause more harm than good.
    I think we also need to give our public housing authorities 
greater flexibility to meet the unique needs of their 
communities and tenants and encourage creative solutions to the 
problems they face in their local communities.
    Our witnesses today will make it clear that the physical 
characteristics of the housing stock they live in matters. But 
we should be mindful that federally-assisted housing programs 
should be about more than just putting a roof over somebody's 
head. It should be about improving outcomes for the residents. 
That is what I think we need to continue to examine. So, I look 
forward to hearing from these witnesses.
    We want to look for solutions. We are for bipartisan 
solutions. We share the same goal, Mr. Chairman, and I really 
appreciate you holding this hearing because HUD is an important 
tool of our Federal Government. I think we need to make sure 
that HUD is using its resources to help individuals not just 
get a roof over their head, but climb out of poverty and go on 
to live their own successful life. And that's what I think we 
need to work together on, in addition to helping, again, the 
unmet capital need.
    Mr. Chairman, I yield back the balance of my time.
    Chairman Clay. I thank the ranking member for his 
thoughtful opening remarks, and I look forward to working with 
this entire subcommittee to come up with solutions on how we 
provide decent, safe, affordable housing to all Americans who 
are in public housing.
    Mr. Stivers. Thanks.
    Chairman Clay. Thank you.
    Today, we welcome the testimony of Deborah Thrope, deputy 
director, National Housing Law Project; Geraldine Collins, 
board president, National Alliance of HUD Tenants; Shalonda 
Rivers, president and resident, 22nd Avenue Apartment Tenants 
Association; Orlando Cabrera, partner, Arnall Golden Gregory; 
Susan Rollins, executive director, Housing Authority of St. 
Louis County; and Margaret Salazar, executive director, Oregon 
Housing and Community Services Department.
    Witnesses are reminded that your oral testimony will be 
limited to 5 minutes. And without objection, your written 
statements will be made a part of the record.
    Ms. Rollins, you are recognized for 5 minutes to give your 
oral presentation.

    STATEMENT OF SUSAN ROLLINS, EXECUTIVE DIRECTOR, HOUSING 
                 AUTHORITY OF ST. LOUIS COUNTY

    Ms. Rollins. Chairman Clay, Ranking Member Stivers, 
Chairwoman Waters, and Ranking Member McHenry, thank you for 
this opportunity.
    The cost of being poor in America is taxing. Often, low-
income individuals are shuffled into unsafe neighborhoods with 
high crime rates, with dilapidated and vacant buildings, and 
neighborhoods that may be havens for drugs, violence, and 
crimes. Schools in these neighborhoods struggle with 
overcrowding, behavioral issues, and accreditation. Many people 
who live in these neighborhoods suffer from high rates of 
diabetes, high blood pressure, and other life-threatening 
diseases. It costs a lot to be poor in America.
    In the past, public housing has been considered a safety 
net to help people who are at risk of becoming homeless. Public 
housing was originally developed in 1937 to house low-income 
families. But during the 1980s and 1990s, public housing 
development began to decline, and has since ceased.
    The decrease in capital funding has led to unaffordability 
and systemic disrepair. In turn, many housing authorities have 
begun to demolish and dispose of their public housing stock. 
Unfortunately, the Housing Authority of St. Louis County 
(HASLC) is no stranger to this.
    Housing authorities apply for demolition disposition 
applications and the units are demolished because they are 
inadequate and obsolete. Tenants receive a tenant protection 
voucher, and many are happy to leave. They move to different 
neighborhoods, and put their children in better school 
districts.
    Lately, the Wellston Public Housing Authority has garnered 
much attention. It has been recommended that the housing stock 
be demolished and residents be given tenant protection 
vouchers. Wellston is one of 92 municipalities in St. Louis 
County. It has 201 units, representing approximately 500 
individuals, which would require almost $14.5 million to 
repair. Most of the residents in these units are negatively 
impacted by the physical conditions and the surrounding 
environment.
    During a 2016 report, a former resident discussed her 
living conditions with researchers, and she cited holes in the 
walls from rodents and severe pest infestation. Her children 
subsequently acquired asthma and breathing problems, and were 
restricted from playing outside due to the constant gunfire and 
violence.
    Like many housing authorities, Wellston is situated in a 
food desert. In 2016, Washington University researchers found 
that high-poverty areas are more likely to have fast food 
restaurants, convenience stores, and liquor stores, but few 
supermarkets and banks.
    Transportation is another issue. Approximately 20 miles 
from downtown St. Louis, there was a public housing development 
called Valley Park. Valley Park had become an oasis because of 
highways that were built around it. An 18-year-old resident 
walked down the median of a four-lane highway to her Burger 
King job because there were no bus stops near her, and the 
express buses did not run at the same time that she needed 
them. She was terrified of the large trucks that went by her on 
the highway, but she was determined to do what was best for her 
family and for herself.
    Unfortunately, local housing authorities were not brought 
to the table to discuss transportation, to discuss the lack of 
bus stops, or to discuss anything that had to do with getting 
people from one place to another, so we leave out an entire 
portion of our community when we are talking about how 
transportation should be run.
    Inadequate housing conditions are also found in the Housing 
Choice Voucher Program. In 2018, TEH, a company, purchased 
approximately 2,400 units in the St. Louis area and received 
over $1 million in subsidy payments. In late 2018, the 
Authority inspections noticed a decrease in maintenance. In 
early 2019, the Authority terminated its landlord agreement for 
any new vouchers. With a grant from the county, all TEH voucher 
holders were relocated at no cost to them.
    Since 2017, HASLC and the St. Louis City Housing Authority 
have collaborated to offer a mobility program to housing choice 
voucher tenants. The goal of the program is to help de-
concentrate poverty and provide tenants with access to better 
neighborhoods. It has also shown that the mobility program has 
a positive effect on health, as well.
    So, what do we need? Obviously, more money would be 
extremely helpful. But as I think Ranking Member Stivers 
mentioned, we have to be more creative, as well.
    There need to be dedicated community liaisons, joining 
housing authorities to various governmental departments for a 
holistic approach to problem solving.
    HUD needs to be given more autonomy to force multi-
jurisdiction vouchers.
    We need to continue to have demonstration programs, like 
the Uniform Physical Conditions Standards for vouchers that is 
looking at standardized HQS inspections at a higher level than 
what is currently in place. In this area, HUD should have 
autonomy over what might pass as acceptable by local 
governments.
    And finally, HUD offices must be staffed with personnel who 
are proactive and willing to know the faces of the people that 
we serve and to work with us hand in hand to make sure that we 
do the best job that we can.
    Thank you, Mr. Chairman.
    [The prepared statement of Ms. Rollins can be found on page 
77 of the appendix.]
    Chairman Clay. Thank you, Ms. Rollins, for your testimony.
    Ms. Salazar, you are recognized for 5 minutes.

   STATEMENT OF MARGARET SALAZAR, EXECUTIVE DIRECTOR, OREGON 
   HOUSING AND COMMUNITY SERVICES DEPARTMENT, AND SECRETARY/
     TREASURER, NATIONAL COUNCIL OF STATE HOUSING AGENCIES

    Ms. Salazar. Good afternoon. Chairman Clay, Ranking Member 
Stivers, and members of the subcommittee, thank you for this 
opportunity to testify on behalf of Oregon Housing and 
Community Services (OHCS) and the National Council of State 
Housing Agencies (NCSHA) on our shared priority to ensure that 
federally-assisted housing is safe, decent, and affordable for 
the tenants who rely on it.
    My name is Margaret Salazar, and I am the executive 
director of Oregon Housing and Community Services. That is 
Oregon's State housing finance agency. I also have the 
privilege of serving as the secretary/treasurer of NCSHA, a 
non-profit, non-partisan organization created by the nation's 
State housing finance agencies (HFAs) to coordinate and 
leverage our Federal advocacy efforts for affordable housing.
    State HFAs, such as OHCS, are mission-based, publically-
accountable entities created under State law to promote and 
advance affordable housing in our States and communities. HFAs 
have our fingers on the pulse of the properties in our multi-
family portfolios, including those with HUD financing, through 
the stewardship compliance monitoring and asset management 
functions that we perform.
    Thirty-three HFAs, including OHCS, are also Section 8 
performance-based contract administrators, known as PBCAs, for 
HUD's Project-Based Rental Assistance portfolio, known as PBRA. 
We provide direct oversight and monitoring of the regulatory 
compliance and physical condition of Project-Based Section 8 
properties.
    As of October 2019, PBCAs administered more than 88 percent 
of all those HUD PBRA contracts. HUD and Congress have time and 
again recognized that PBCAs are key to HUD's efforts to 
effectively and efficiently oversee and monitor HUD-assisted 
properties by reducing improper payments, protecting tenants, 
and ensuring that properties are well-maintained.
    At the outset, it is important to state that most PBRA 
properties are in good physical condition and provide tenants 
with safe, healthy, and affordable homes. Less than 5 percent 
of the more than 31,000 PBRA properties are ranked as high-risk 
or troubled. But notwithstanding that, PBCAs are an important 
touch point for tenants, responding to their concerns in a 
timely manner, and acting as an early warning system for HUD 
monitoring and enforcement.
    PBCAs also take proactive approaches to reduce 
noncompliance with program rules and to leverage our affordable 
housing resources that we put out as State agencies to improve 
and preserve the properties in our portfolios.
    Despite these successes, PBCAs and our portfolios have been 
impacted by years of program uncertainty as a result of bid 
protests, funding constraints, inconsistent Federal oversight, 
and HUD's long and complicated process for developing a 
procurement framework for PBCAs.
    For example, since 2011, HUD prohibited PBCAs in 42 States 
from conducting annual management and occupancy reviews (MORs), 
which are a critical tool for property oversight, while bid 
protests took place. HUD finally reinstated MORs in 2016. Since 
then, however, HUD budgetary constraints have limited PBCA 
reviews to only 43 percent of the potential reviews each year.
    The PBCA program now faces a critical juncture as HUD 
prepares to release a new procurement solicitation that will 
determine what entities are eligible to serve as PBCAs, where 
they can serve, and the scope of their work.
    We hope that HUD is considering the constructive feedback 
that it received after its first attempt at procurement to 
avoid repeating the shortcomings of that attempt. The 
previously proposed plan failed to comply with statutory 
requirements that HUD contracts with public housing agencies 
for this important work.
    HUD also sought to split the work done by PBCAs between 
regional and national contractors, moving away from a 
successful, comprehensive State-based approach. That plan would 
have added undue risk to the Federal Government, negatively 
impacted the health and safety of the 1.2 million tenants who 
today rely on PBRA assistance, and endangered preservation 
efforts throughout the country.
    We urge Congress to protect and improve the PBRA portfolio 
for those tenants and for future generations by ensuring that 
HUD's new solicitation for PBCA contracts does not make the 
same mistakes. This is why we urge the subcommittee to support 
the discussion draft's clarification that HUD must contract 
with public housing agencies for this work, and contract with 
partners that have experience addressing tenant concerns and 
preserving affordable housing.
    We want to acknowledge that there are some differences in 
opinion in the discussion draft and how it approaches this 
concern. We believe that there is considerable common ground 
here, and there is consensus available to emphasize the 
importance of having mission-driven organizations do this PBCA 
work across the country.
    Thank you for the opportunity to testify.
    [The prepared statement of Ms. Salazar can be found on page 
83 of the appendix:]
    Chairman Clay. Thank you, Ms. Salazar.
    I now recognize Ms. Thrope for 5 minutes.

  STATEMENT OF DEBORAH THROPE, DEPUTY DIRECTOR, THE NATIONAL 
                      HOUSING LAW PROJECT

    Ms. Thrope. Good afternoon, Chairman Clay, Ranking Member 
Stivers, and distinguished members of the subcommittee.
    Thank you for the opportunity to testify today on the 
current state of residents' health and safety in federally-
assisted housing. I am here on behalf of the National Housing 
Law Project, a non-profit organization that provides legal and 
technical assistance to housing advocates, tenant leaders, and 
public officials nationwide on the housing issues confronting 
poor Americans.
    Our nation faces an affordable housing crisis. Over 11 
million families pay upwards of 50 percent of their income on 
rent. HUD housing programs provide an essential source of 
housing for severely cost-burdened families. In fact, in many 
communities, HUD housing is the only source of affordable 
housing for seniors, people with disabilities, and families 
with children. HUD and Congress must do more to protect the 
health and safety of these residents.
    This afternoon, I will briefly discuss the current state of 
HUD housing and how we got here, and then I will highlight five 
key recommendations for Congress to improve the quality of life 
for HUD residents.
    First, to be clear, as Ms. Salazar stated in her testimony, 
a vast majority of HUD-assisted housing is, in fact, in good 
condition. According to HUD, 97 percent of HUD multi-family 
properties, and 92 percent of public housing properties, have 
physical inspection scores of 60 or higher, which is a passing 
score.
    However, inspection scores do not tell the whole story. The 
fact is that many HUD tenants are still exposed to mold, lead-
based paint, poor air quality, and other health and safety 
hazards. One reason for this is that HUD's physical inspection 
protocol, REAC, does not accurately reflect property 
conditions. REAC inspection standards are dated and have not 
been modernized to test for common environmental toxins.
    While we are optimistic that HUD is advising REAC in its 
new NSPIRE demonstration, HUD has given us no reason to believe 
it will address some of our key concerns, notably that 
residents have been and continue to be denied a role in the 
inspections process. These concerns were highlighted yesterday 
in a letter from Chairwoman Waters to HUD Secretary Ben Carson.
    Another reason we see substandard conditions in HUD housing 
is because, even when HUD does identify deficiency, it rarely 
holds housing authorities or Project-Based owners responsible. 
In most cases, HUD has the tools to enforce physical 
conditions, but often fails to use them.
    Finally, in the case of public housing, decades of 
underfunding by Congress has led to a huge capital need, and a 
maintenance repair backlog close to $50 billion and growing. 
Rather than managing and rehabilitating its properties, HUD has 
often failed to address deficiencies and instead focused on 
demolition. The loss of HUD properties is contributing to our 
nation's affordable housing crisis.
    I will now offer five key strategies to address the health 
and safety of HUD residents.
    First, Congress must increase funding for the public 
housing program to address maintenance and repair needs of all 
existing units. This will help slow the estimated loss of 
10,000 public housing units we see each year. While the Rental 
Assistance Demonstration, or RAD, has provided a path to 
preserve and rehabilitate a large portion of the public housing 
stock, RAD is not a viable solution for many housing 
authorities, especially smaller ones that cannot access the 
private financing available to meet RAD's bottom line. Bold 
proposals like Chairwoman Waters' Housing is Infrastructure Act 
will appropriate sufficient funds to support the development 
and preservation of public housing.
    Second, Congress must strengthen HUD's oversight of failing 
properties. HUD's obligation to create remediation plans and 
use penalties to bring properties into compliance has weakened 
with time. Wellston, Missouri, provides an excellent example of 
how stronger HUD oversight could have preserved HUD housing and 
protected residents from demoralizing living conditions.
    I want to highlight one fact that I do not think Ms. 
Rollins mentioned in her testimony, which is that the Wellston 
Housing Authority has been in HUD receivership for the past 20 
years. During its receivership, HUD completely failed to take 
steps to rehabilitate the properties. Instead, last year HUD 
announced the demolition of 200 public housing units, and it 
does not have to be this way.
    The third strategy is to increase your oversight of HUD. We 
recommend requiring HUD to submit quarterly reports on detailed 
property-level information with respect to physical conditions. 
HUD's current reporting obligations are inadequate to assess 
the health and safety issues at individual properties.
    The fourth strategy is to increase resident engagement in 
the physical inspections process. You will hear from Shalonda 
Rivers in a couple of minutes about how it took the residents 
themselves to direct HUD's attention to toxic living conditions 
in her home despite passing REAC scores.
    Last, there are several bills up for discussion today that 
incorporate these strategies. We strongly urge the committee to 
support H.R. 3745, the HUD Inspection Oversight Act of 2019, 
and the tenant empowerment legislative proposal that was 
brought here by the National Alliance of HUD Tenants.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [The prepared statement of Ms. Thrope can be found on page 
90 of the appendix.]
    Chairman Clay. Thank you so much, Ms. Thrope.
    Ms. Collins, you are recognized for 5 minutes.

STATEMENT OF GERALDINE COLLINS, PRESIDENT, NATIONAL ALLIANCE OF 
                       HUD TENANTS (NAHT)

    Ms. Collins. Hello, and thank you, everyone, for having us 
here this afternoon. Thank you, Chairman Clay and Ranking 
Member Stivers, for inviting the National Alliance of HUD 
Tenants (NAHT) to testify on behalf of the 1.7 million 
households in privately-owned HUD housing.
    We urge Congress to pass the tenant empowerment discussion 
draft and to enact the HUD Inspection Oversight Act of 2019. 
Together, these bills will provide tools to empower tenants to 
ensure our homes are safe.
    Most HUD and public housing provides decent, safe, and 
affordable homes for millions of families, including Phelps 
House, where I live in Manhattan.
    It has long been apparent to NAHT's members that the HUD 
Real Estate Assessment Center (REAC) systematically 
underreports health and safety problems. The disconnect between 
REAC scores and substandard housing came to a head at several 
Global Ministries properties in 2015 when tenants at Eureka 
Gardens in Jacksonville, Florida, exposed deplorable, life-
threatening conditions. Most recently, coverage by NBC and 
ProPublica has concluded that REAC is, ``pretty much a 
failure.''
    HUD has recently instituted the NSPIRE Demonstration and 
Response, but given the urgency, HUD response has been too 
little, too slow. It took the action of two deaths to happen in 
South Carolina for HUD to realize that tenants were not 
protected from carbon monoxide.
    Since 1999, HUD was downsized, and that vision was to 
organize tenants that could serve as unpaid ears and eyes to 
save and improve our homes. Unfortunately, from the outset, 
REAC has rejected this vision and prevented its inspectors from 
engaging with residents when they visit a property. Management 
staff can accompany inspectors, but not the people who live in 
the buildings. If REAC visits during the summer, how will they 
know that the heating system does not work in the winter, 
unless they talk to the tenants?
    The tenant empowerment bill would address this problem by 
tapping into the experience and expertise of tenants at no cost 
to taxpayers. Currently, HUD can take action to many owners and 
have them bring buildings up to code, including partial 
withholding of Section 8 subsidy buildings.
    But too often, powerful owners at buildings like Forest 
Cove in Atlanta are treated with kid gloves by HUD. I have 
visited Forest Cove, and you will see some of the slides shown 
here. Although Millennia has managed there for 2 years, tenants 
are still exposed to deplorable conditions including rats, 
water leaks, toxic mold, exposed wiring, and more. No one 
should have to live like this.
    We presented these slides to Millennia and HUD last March, 
urging emergency relocation of 17 families until their units 
were made habitable. Although the REAC score is 32, HUD has yet 
to make Millennia take action, and families continue to suffer.
    The tenant empowerment bill would enable tenants to put our 
rent into escrow, thereby requiring HUD to withhold its portion 
of the rent to pressure owners to fix these conditions. If HUD 
will not move against entrenched, powerful owners, Congress 
should give the tenants the power to make HUD do its job.
    The bill would empower tenants of cities to petition HUD or 
to re-inspect properties when REAC failed to detect hazardous 
conditions. For example, St. Edmonds in Chicago, shown in these 
slides, passed the REAC score in 2017 despite widespread water 
leaks, mold, asbestos, and window leaks.
    A maintenance worker was put in intensive care because of 
mold that he found behind a child's bedroom. When life-
threatening conditions like these persist, and the owners and 
HUD fail to act, the bill would give tenants the right to sue 
and enforce contracts between HUD and the owner.
    The bill would also give tenants access to key information, 
such as who the building owners are, their repair plans, and 
reserves overseen by HUD. Tenants can help make sure taxpayers' 
funds are spent wisely and well. Only slumlords with something 
to hide would object.
    This bill would also require REAC to adopt simple, common-
sense steps to involve tenants as partners. Because of our 
homes, tenants have the most at stake.
    I urge you to pass the tenant empowerment bill so that 
tenants can partner with HUD to stem the disgraceful blights of 
substandard housing.
    Thank you.
    [The prepared statement of Ms. Collins can be found on page 
42 of the appendix.]
    Chairman Clay. Thank you, Ms. Collins.
    Ms. Rivers, you are now recognized for 5 minutes.

STATEMENT OF SHALONDA RIVERS, PRESIDENT, CORDOBA COURTS TENANTS 
   ASSOCIATION, AND BOARD OF DIRECTORS, NATIONAL LOW INCOME 
                       HOUSING COALITION

    Ms. Rivers. Good day, everyone. Chairman Clay, Ranking 
Member Stivers, and members of the subcommittee, thank you for 
the invitation today.
    I am a board member of the National Low Income Housing 
Coalition and a member of the National Alliance of HUD Tenants. 
I am a long-time resident at 22nd Avenue Apartments, Cordoba 
Courts, for 15 years, and I currently serve as the president of 
the tenants association.
    The property is owned by Millennia Housing Management and 
is subsidized by HUD Project-Based Section 8. The tenants 
association started in 2013 due to the fact that many residents 
had similar complaints about deplorable conditions and poor 
management, and realizing many of these deplorable conditions 
residents faced were not right.
    We lived in homes with rats, termites, peeling paint, major 
water leaks, toxic mold, improper security, and plumbing issues 
that had resulted in raw sewage backing up into our apartments. 
Some of these issues are documented in the photos that we 
submitted to the committee today.
    Deplorable conditions still remain today in spite of many 
written communications directly to HUD for many years about 
unsafe and unsanitary conditions.
    As the president of the tenants association, I reached out 
to HUD in 2015 about the health and safety concerns. HUD was 
not happy about me contacting them on the behalf of other 
residents in the community. Many residents in my community were 
forced to pay out-of-pocket for mold tests due to HUD response 
saying no, they cannot send a mold company to do testing. All 
results showed positive and unsafe levels of mold.
    In September of 2018, management moved several residents 
and families, including me and my 4 children, out of these 
toxic, poisonous apartments into hotels while they supposedly 
made repairs. We spent several holidays in a hotel suite that 
was not comparable to my three-bedroom, one-and-a-half bath 
apartment. My family checked out of the hotel on Tuesday, 
October 1, 2019, a year later.
    Several residents were forced to move back into a different 
unsafe and unsanitary apartment after living in the hotel for a 
year. The health and safety of residents is still at risk, 
forcing residents to face these same old substandard conditions 
again when the apartments were supposed to be fixed. We are 
forced to live in substandard conditions in spite of written 
communication to Millennia Management and HUD.
    I firmly believe not one person here today would want their 
family to endure now, or in the future, such deplorable 
conditions. All low-income families should be treated with 
human dignity and fairness. I am a long-time advocate who has 
been on the ground advocating for decent, safe, and sanitary 
housing.
    However, my family and other families were faced with 
retaliation evictions from Millennia Housing Management. 
Additional retaliation came when Millennia abruptly stopped 
paying for the hotel, forcing low-income residents to pay the 
hotel fees out-of-pocket or face homelessness.
    As of today, one family with a son with a disability is 
still living in the hotel, struggling to pay and cover the 
fees, while management claims there is a legal issue. But this 
is wrong. Families were displaced because of the failures of 
management.
    The PBCA does not work, and HUD failed throughout the years 
to make sure all residents' homes are decent, safe, and 
sanitary. One example, in May of 2018, in a REAC for my 
community, HUD rounded off a final REAC score of 59.54 to 60, 
which they have used as an excuse not to sanction the owner as 
required by HUD Notice 2018-8.
    If the tenant empowerment legislation proposed by NAHT is 
passed, this will allow tenants to withhold the tenant's 
portion of the rent in escrow for units found to be substandard 
by HUD, and withhold HUD's larger portion of the rent. This 
will increase pressure on the property owners and bring owners 
and HUD to the table.
    If HUD won't act on its own when buildings are substandard, 
Congress should give residents the power to make them do so.
    If a HUD REAC score does not reflect actual conditions, 
this legislation would allow residents to trigger a new 
inspection with a tenant petition.
    If HUD takes action to enforce its own contracts with 
owners, this bill will give residents the legal standing to sue 
and force these contractors into Federal court.
    This bill will give tenants the power to make owners and 
HUD do their jobs and provide residents with the safe, decent, 
and affordable housing that we deserve.
    We ask you to pass this bill.
    Thank you for the opportunity to testify today.
    [The prepared statement of Ms. Rivers can be found on page 
58 of the appendix.]
    Chairman Clay. Thank you, Ms. Rivers, for your testimony.
    Ms. Rivers. Thank you.
    Chairman Clay. Mr. Cabrera, it's so good to see you back on 
Capitol Hill.
    Mr. Cabrera. Likewise, Mr. Chairman.
    Chairman Clay. You are now recognized for 5 minutes.

 STATEMENT OF ORLANDO CABRERA, PARTNER, ARNALL GOLDEN GREGORY 
                              LLP

    Mr. Cabrera. Thank you, Mr. Chairman, Ranking Member 
Stivers, and members of the subcommittee for inviting me to 
testify today. I am grateful for the opportunity.
    My immediate concern surrounds the newly released specific 
discussion draft legislation--not all of it, just a particular 
portion of it.
    That discussion draft is entitled, the ``Ensuring 
Performance-Based Contract Administrators Actually Perform 
Act.'' That is unfortunately named. It seeks to amend the 1937 
Act, and potentially harms the mission of providing safe and 
decent housing.
    The discussion draft legislation is not helpful because it 
creates groundwork to impair competition between those entities 
already federally-qualified to act as PBCAs. As Margaret noted, 
PBCAs are very committed to undertaking their roles as 
enthusiastically as they always have for 2 decades. This Act 
simply makes that a lot harder and a lot more expensive.
    PBCAs provide HUD services that help HUD's statutorily-
mandated mission to serve low-income Americans. Limiting 
competitors under the 1937 Housing Act would cause competitors 
to do less, not more. That would not serve HUD's mission.
    The draft legislation is unhelpful for other reasons, as 
well. One of the reasons is that it creates legal issues where 
none currently exist. The draft creates visions that are 
unsupported by law, policy, or decades-old practice. The 
Housing Act of 1937 has done the heavy lifting of housing low-
income Americans for 82 years.
    Contrary to popular notions, federally-assisted housing is 
a remarkably narrow legal concept that touches millions of 
lives. Operationally, the 1937 Housing Act's Section 8 program 
is built upon the legal provision that empowers the Secretary 
to contract with congressionally-determined entities called 
public housing agencies.
    The Housing Act of 1937 creates, and HUD regulates, public 
housing agencies. Public housing agencies include States, 
counties, cities, and other governmental entities that engage 
or assist in the development or operation of public housing, 
like public housing authorities.
    Lots of entities engage or assist with the development or 
operation of public housing. Let's start with public housing 
agencies that are also public housing authorities. Those are 
two different things.
    In nearly all States, public housing authorities are 
creatures of the State, not the Federal or local government. 
They allocate Section 8, operate public housing, or both, as 
those programs are specifically authorized under the 1937 Act.
    In most States, over 40, State statute-governing public 
housing authorities expressly permit them to enter into 
contracts, nearly any contract, with the Federal Government. 
And in most cases, those laws allow them to contract with HUD 
specifically in every context.
    The discussion draft legislation seems to focus its concern 
on housing finance agencies. What are housing finance agencies? 
As Margaret noted, housing finance agencies are also created as 
a matter of State, not Federal, law. Many, like the one I led, 
the Florida Housing Finance Corporation, as an example, are not 
State agencies or attached directly to the State Government. 
And unlike public housing authorities that HUD itself has 
pronounced as capable of acting as PBCAs, HUD has made no 
similar expressed determination that HFAs are necessarily 
instrumentalities of their State.
    Unlike public housing authorities, housing finance agencies 
do not own or develop public housing. In fact, most neither own 
public housing nor administer Section 8, which again is not 
public housing.
    In all other relevant respects, the concerns that the draft 
legislation seeks to clarify seems to apply to any government 
agency that is a public housing authority, housing finance 
agency, or other governmental entity, like a county or city 
housing department.
    So, that begs the question, why does the draft legislation 
only mention public housing agencies that are HFAs? I think it 
is designed to do a couple of things. It is designed to address 
a problem that is not fundamentally there, and I think it is 
designed to make sure--I am not sure, as it is a discussion 
draft--that somehow those things that have not been clear in 
the past become clear now. But it has accomplished exactly the 
opposite of that.
    Now, just for the record, there are people out there who 
think that HFAs are not public housing agencies. I am not one 
of those people. I led an HFA. I have been on NCSHA's board. 
So, I am not in that school.
    I do think there is a better way to approach this. Margaret 
rightly noted that HUD has had an uneven record with respect to 
procurement, which I am happy to talk about as I was heavily 
involved in all of that.
    But it seems to me that the right way to proceed might be 
to have an agreement that the Housing Act says certain things, 
and one of the things it says is that public housing agencies 
administer Project-Based Section 8. Maybe, we can begin there.
    Thank you for your time. I am ready to answer all of your 
questions.
    [The prepared statement of Mr. Cabrera can be found on page 
36 of the appendix.]
    Chairman Clay. Thank you, Mr. Cabrera, for your time. I now 
recognize myself for 5 minutes for questions.
    Ms. Rollins, recently, we had a situation in St. Louis 
where a tenant had cockroaches in her apartment, which turned 
out to be an infestation, despite the efforts of the St. Louis 
City Housing Authority, and unfortunately, she had to live in 
her car for a short period of time.
    Can you talk about the cooperation that was necessary to 
ensure that our fellow St. Louisan and her children had a safe 
place to live?
    Ms. Rollins. Thank you, Mr. Chairman, for bringing up that 
example.
    The City Housing Authority has thousands of public housing 
units. The St. Louis County Housing Authority, now that we have 
absorbed Wellston, has about 501 public housing units. But 
regardless, there should never be a situation where a family is 
put in that type of situation. I think that Ms. Collins spoke 
very eloquently to that.
    There should never be a situation where a family is paying 
for their relocation from being in a unit that is not up to 
par. I was very sad to see the City Housing Authority take so 
long to pay attention to this particular situation, and it took 
many, including your office, to get them to pay attention to 
this situation.
    I would like to hope that all housing authority directors, 
who are all people responsible for the people we serve, would 
take an interest and get out into the field and find out what's 
going on in those communities. I tend to be that type of 
director. I am out of the office much more than I am in the 
office, and I think it is important, even when I send my staff 
into the trenches, that I go with them.
    But not everybody feels that way, not everybody believes 
that, so it is important for us to have some rules in place so 
that we can be assured that everybody is getting--that we are 
at the same level of looking at things and that we are at the 
same level at dealing with situations. I would hope that if the 
Wellston Housing Authority had been under our purview a long 
time ago, this would not be where we are today.
    So, those are some of the issues. I agree with the issues, 
as well, about housing authorities, about HUD and the REAC 
inspections and not feeling that they are strong enough. 
Because when I go into a unit, I am looking at a unit in terms 
of whether I would live there myself, or whether I would have 
any of my family members live there.
    Chairman Clay. Excuse me. Let me ask Ms. Salazar, not to 
cut you off, but Ms. Salazar, a March 2019 report from the GAO 
paints a picture of an overwhelmed and underresourced Real 
Estate Assessment Center (REAC), the part of HUD responsible 
for inspections of public and multi-family housing. We also 
know that HUD lost almost 50 percent of its staff since 1991, 
and almost 20 percent between 2008 and 2017, more than any 
other Cabinet-level Department during this time.
    If these levels of staff lost and resource depletion 
continue at HUD, what would be the effect of the Department's 
ability to ensure the availability of safe and decent housing 
for lower-income Americans?
    Ms. Salazar. Mr. Chairman, thank you for that question.
    I think we are definitely concerned about the overall 
capacity of being able to ensure the oversight of the HUD-
assisted portfolio. Our role, as the performance-based contract 
administrator, is that we engage on behalf of HUD with 
providing the oversight for these properties. So, I think as 
HUD's staffing levels have diminished and capacity has 
diminished, it is even more important that we have mission-
driven agencies, such as public housing agencies, that are on 
the ground working with these properties to be able to respond.
    And I will give you one quick example of that. We have a 
tenant hotline, and we responded to a tenant complaint that 
they had no hot water in their unit. We raised that concern to 
the owner. The owner did not correct the issue. We raised it to 
HUD and we recommended that HUD abate the Section 8 payment for 
that apartment. HUD followed our recommendation and abated the 
Section 8 until the repair was able to be made. And it is only 
because of the relationship that we have, that we were able to 
do that. But without a robust PBCA program, that relationship 
is in jeopardy.
    Chairman Clay. Thank you.
    Ms. Collins, tell me what you think the weaknesses are in 
the HUD inspection program? What did you witness?
    Ms. Collins. Thank you for that question.
    The weakness there is that NAHT has given HUD many 
recommendations on how to better help them do this. But I see 
the situation. I understand the problem that they do not have 
enough people to take care of the plans. But I think that, had 
they done stuff in the beginning, it would not have gotten this 
bad, and that is why we urge you today to pass the tenant 
empowerment bill, to force HUD to do better, because they could 
have and they didn't.
    Chairman Clay. Thank you.
    The gentleman from Ohio is recognized, Mr. Stivers.
    Mr. Stivers. Thank you, Mr. Chairman. I want to thank you 
again for holding this hearing. It is a very important topic 
and we need to make sure that people are in safe and decent 
housing. And I want to thank all of the witnesses for being 
here.
    Mr. Cabrera, welcome back to the committee. I think you 
have a unique insight as somebody who has formerly worked at 
HUD and is now a housing developer and provider.
    In past testimony, you have talked about how HUD is 
woefully inadequate, both in the technology at their disposal 
and the data collection and data use they have to improve 
conditions and to improve outcomes. Do you believe this 
contributes to the quality of housing stock that is either 
unsafe or not decent?
    Mr. Cabrera. It does. I think that contributes in a couple 
of ways. The first one is just with respect to REAC 
inspections. Being the guy who principally was responsible for 
REAC oversight at one point, the data that is being collected 
is being collected using methodologies that are 30-years-old. 
HUD, in some areas, still uses Excel spreadsheets to collect 
data. That is a significant problem. It means that they cannot 
relate--
    Mr. Stivers. I did that in college in the 1990s.
    Mr. Cabrera. --the bad circumstances, as my colleagues to 
the right have recounted, to any kind of correlation.
    Mr. Stivers. That's not very good follow-up there, and not 
a very good tickler system and not a very good way to keep that 
data--
    Mr. Cabrera. In part, if I may, Mr. Ranking Member, that is 
not entirely a HUD thing. That is going to be an institutional 
decision, not HUD's institutional decision, but the body's 
institutional decision to invest in data collection and invest 
in the technology. And I'm not casting--
    Mr. Stivers. If we were to do that, do you believe that 
could be used to not only track the quality of housing stock, 
but also track outcomes of residents and improve outcomes of 
residents?
    Mr. Cabrera. It would improve things soup to nuts. From 
HUD's perspective, from each PBCA's perspective, and from the 
residents' perspective, and the owners, by the way.
    Mr. Stivers. Thank you. One more for you, Mr. Cabrera. We 
hear a lot about the rising cost of rental units. I hear a lot 
about that in my district. We have a shortage of supply, which 
results in higher cost and more competition. Do you think that 
is also making it harder for users of Choice vouchers to get 
access to homes?
    Mr. Cabrera. I think it depends upon where it is. In some 
places where rent is far outpacing payment standards, it is 
becoming a crisis. It is a crisis. In other places, it is less 
so. It is not a uniform rule. I have two hometowns. I grew up 
in Boston, Massachusetts and in Miami, Florida, and in both 
places, it is in crisis mode at this point. So, it depends.
    Mr. Stivers. Yes, and I understand that market conditions 
matter. But in many areas, I think that is driving part of the 
problem and something we need to look at as a broader policy 
issue.
    Ms. Rollins, thank you for being here. I really appreciated 
your testimony. Can you tell me, do you feel like HUD gives 
your PHA the flexibility you need to meet the unique challenges 
in your community?
    Ms. Rollins. I think ``flexibility'' is the wrong word, 
really when we are talking about this. It is very difficult to 
work with some of the HUD offices, and also to work with all of 
the rules that are in place.
    Mr. Stivers. Help me rephrase that, then. Are the rules 
stifling your ability to serve your community? And is there a 
way to make HUD be a better partner in serving the populations 
you serve? How is that?
    Ms. Rollins. That is much better.
    Mr. Stivers. Thank you.
    Ms. Rollins. And the answer is, yes. Every community is 
different. You just heard that from Mr. Cabrera. Things are 
different no matter where you are, and I think that we have to 
take that into consideration. And local HUD offices have to 
understand our communities that we are working in.
    You also have State Governments that are working with us or 
against us, and you have local governments that are working 
with us or against us, as well. We have to understand all of 
those pieces of the puzzle before we can really work at a 
problem and get down to where we can solve something.
    Mr. Stivers. I only have 35 seconds left. One last one for 
you, Ms. Rollins. Moving to work, does that give you better 
flexibility? Does that help you serve your community better? 
Yes or no, and if you want to expand in 23 seconds, you can.
    Ms. Rollins. It is not something that we have used in the 
Housing Authority of St. Louis County. It has not been as 
effective as what we would like for it to be there, but it can 
be used in other communities, I think, very well. So, 
demonstration programs are important, and we need to look at 
all of the options for all of the communities.
    Mr. Stivers. If you have any other ideas to help make them 
a better partner, please follow up with us, and I yield back 
the balance of my time.
    Ms. Rollins. Thank you.
    Chairman Clay. I thank the gentleman. And I now recognize 
the gentlewoman from New York, Ms. Velazquez, for 5 minutes.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Ms. Thrope, public housing in our nation is in a state of 
crisis, and you put a face to what is going on in the public 
housing developments where you live, and Ms. Collins, and so 
many others.
    So, despite the deteriorating conditions of our public 
housing system and the detrimental impact it is having on 
residents' health, for the second year in a row, President 
Trump and Secretary Carson requested zero dollars for HUD's 
public housing capital fund for Fiscal Year 2020, which is the 
main source of funding that public housing authorities rely on 
to address necessary infrastructure upgrades such as roofs, 
boilers, and piping.
    Can you explain the impact zeroing out the capital fund 
will have on the conditions in public housing?
    Ms. Thrope. Thank you, Representative Velazquez. The 
failure to fund public housing has had an incredible impact on 
public housing residents around the country, and it has led to 
deteriorating conditions for many families. Public housing 
plays a critical role in many communities. It is often the only 
form of deeply affordable housing for families because it is an 
income-based rent. And, so, it is all the more important that 
we put the resources in to preserve it.
    I want to note that when we do not preserve public housing, 
when we fail to fund public housing, HUD's response 
historically has been to demolish it. When we demolish public 
housing, what happens if you have--we do something called 
voucher the tenants out, where we give families vouchers. And 
many communities around this country cannot absorb the 
vouchers, as we were just discussing when we voucher out these 
public housing residents. And, so, that itself is contributing 
to the affordable housing crisis, and there are examples all 
over the country where the voucher markets just cannot absorb 
the vouchers as a result of demolitions and families are 
displaced.
    Ms. Velazquez. Thank you. And as a result of that, I 
introduced legislation, H.R. 4546, the Public Housing Emergency 
Response Act, which will authorize $70 billion for the public 
housing capital fund and address all the capital repair needs 
of all public housing authorities around the country.
    Are you supportive of a funding infusion of this kind? And 
how would it improve the living conditions and health needs of 
residents?
    Ms. Thrope. We would support any increase in funding for 
the public housing programs due to the severe capital needs at 
many properties, as well as the maintenance repair backlog. So, 
any infusion of funding could significantly, positively impact 
the lives of public housing residents.
    Ms. Velazquez. And it could happen--I don't know. I don't 
think that it will happen this year, but if there is consensus 
and bipartisan support, passing an infrastructure bill calling 
for trillions of dollars of investment. And what I have been 
advocating for is to treat public housing as part of our 
national infrastructure, and I hope that you will all be 
supportive of such an effort.
    Ms. Thrope. Absolutely.
    Ms. Velazquez. Thank you. I yield back.
    Chairman Clay. I thank the gentlewoman for her questions.
    I now recognize the gentleman from Missouri, Mr. 
Luetkemeyer, for 5 minutes.
    Mr. Luetkemeyer. Thank you, Mr. Chairman.
    In listening to the commentary and your testimony up to 
now, a summary would be that there is a shortage of public 
housing, and that existing housing stock is in definite need of 
repair. And some of the other things that have been said, that 
there is a shortage of money to be able to do all these things. 
We have problems with HUD inspectors, and we have owner 
problems, being able to get owners to live up to the agreements 
to take care of their property. So, it is a multi-faceted 
problem that we are talking about, and I appreciate all of your 
commentary today. I think it is important we get the full 
picture.
    Let me start with Mr. Cabrera. As we have heard today, 
public housing capital funds face a shortfall of up to $70 
billion. HUD's Rental Assistance Demonstration project (RAD) 
was created under the Obama Administration in 2011 to preserve 
and maintain affordable housing. RAD gives public housing 
authorities the ability to convert public housing into long-
term, Project-Based assistance while leveraging public and 
private debt and equity.
    Do you think RAD has been successful in meeting its goal of 
preserving affordable housing?
    Mr. Cabrera. I think RAD has been indispensible to 
converting and preserving affordable housing. I think that the 
idea that RAD somehow harms communities is something I just 
have not experienced. I have seen housing authorities 
transform, and I have seen tenants' lives transform through 
RAD. RAD assures affordability for a period, generally for 
decades, for between 35 and 50 years, depending upon what State 
you are in.
    I think that, candidly, RAD would move more effectively if 
housing authorities did not have to incur a significant 
financial hit when they undertake a RAD deal, because what is 
happening is you are losing public housing stock, and you are 
increasing either Project-Based vouchers or HAB contracts. But 
it impacts their bottom line severely and they have to 
transition operations. Many housing authorities struggle with 
that, which is why they are not undertaking RAD. Just a couple 
of great examples. I'm sorry, Congresswoman Velazquez. NYCHA 
has had a really hard time with RAD just simply because of 
scale and expense.
    So, I guess I am beating this horse, but the answer is yes, 
Congressman.
    Mr. Luetkemeyer. I love that answer. That is a lot of 
explanation there. Thank you for that.
    In light of this massive shortfall of capital funds that we 
have been talking about here, what other options are available 
to help preserve our housing stock?
    Mr. Cabrera. Is that for me, as well?
    Mr. Luetkemeyer. Yes.
    Mr. Cabrera. I am deeply concerned that the capital fund is 
in constant crisis. I don't know that there is a $50 billion 
shortfall in capital needs in public housing. Here is what I 
can affirmatively say as a matter of firm metrics: It is above 
$36 billion. We know that.
    I do not have the expectation, just generally as a matter 
of budget reality, that Congress would appropriate something on 
the order of $36 billion or $50 billion for the purpose of 
revisiting public housing.
    I think trying to leverage those mechanisms that exist 
currently to the fullest extent possible is a critical thing. 
For example, currently, Senator Maria Cantwell from Washington, 
and Senator Todd Young from Indiana, have a bill that expands 
the Low-Income Housing Tax Credit, and that would be a very 
good thing for public housing authorities looking to revisit 
their assets because public housing authorities, when they 
compete within 9 percent cycles, a particular kind of Low-
Income Housing Tax Credit, they are competing with the entire 
marketplace. And if you do not expand that pool, it is going to 
be harder and harder for them to win very scarce resources. So, 
I would encourage that kind of thinking.
    Mr. Luetkemeyer. I know that we have talked about this many 
times and there has always been a problem with a shortage of 
units. One of the things is always the rules and regulations, 
the local ordinances, and the costs that the contractor incurs.
    Do you think if we had, with the Low-Income Housing Tax 
Credit program--if you had some waivers attached to that for 
some of the regulations, the local stuff that just adds cost 
upon cost upon cost to these projects, it would be helpful? Or 
find a way to put waivers on there? What would be your 
suggestion? Because it is ridiculous that 25 percent of the 
cost of one of our hearings one time was due to regulation.
    Mr. Cabrera. Right. I was a developer for a company that 
was based in southern California that developed in California 
and other States, and soft costs, which is what you are 
referring to, was an enormous carry in the context of all of 
our deals.
    How do you reduce that? That is probably as complex a 
question as I can think of in places like California because 
there are so many other laws, State laws and regulations that 
come into play. It is hard to answer that question simply for 
that reason. So, in California, can it be reduced? The answer 
is yes, it can.
    Mr. Luetkemeyer. It does come into play with regard--
    Chairman Clay. The gentleman's time--
    Mr. Luetkemeyer. --to getting housing to be affordable.
    Mr. Cabrera. Yes, it does.
    Chairman Clay. The gentleman's time has expired.
    Mr. Luetkemeyer. Thank you, sir.
    Chairman Clay. I now recognize the chairwoman of the full 
Financial Services Committee, Chairwoman Waters, from the State 
of California.
    Chairwoman Waters. Thank you so much, Congressman Clay, for 
holding this hearing. And I want to thank you for all of the 
work that you are doing relative to your area, St. Louis, 
Missouri, and your focus on Wellston and all that you are 
attempting to accomplish to make sure that HUD is providing the 
resources and doing what can be done for revitalization and 
providing opportunities for tenants.
    But more than that, Mr. Chairman, I want to thank you 
because you have here before you today Ms. Geraldine Collins, 
the board president of the National Alliance of HUD tenants. I 
met with them a few months back to talk about how Congress and 
HUD can help ensure that tenants are empowered to hold their 
landlords and HUD accountable when it comes to conditions in 
housing that no one should have to live in.
    I cannot tell you how pleased I am about their advocacy 
because oftentimes, we accuse tenants of not being involved, 
not speaking up for themselves, and now we hear a real voice 
and real advocacy and organizing. However, they are doing it 
without the support of HUD, and HUD has, as I understand it, 
$10 million that should be directed toward helping tenants to 
organize.
    So, the question becomes, and I guess I just want to get 
this on the record for Ms. Collins, has HUD made any attempt to 
talk about how they are going to release the resources that 
should be available to tenants to help in this organizing 
effort?
    Ms. Collins. No, they haven't. Thank you for that question. 
No, they haven't. We have met with them several times--not 
several times, many times, month after month, year after year, 
and they have never given us an answer.
    Chairwoman Waters. They have not given you an answer about 
resources, and you are out there working, using your own 
resources to organize and to get people together and travel and 
all of that? And at the same time, HUD is not, as I understand 
it, living up to its responsibility for repair and for the 
upkeep of the housing for which it has the oversight and 
management, is that correct?
    Ms. Collins. That is correct. They can bring down to $10 
million a year, annually, and all they need to do is to put out 
to different areas in the different States $1 million to help 
tenant associations organize. If they put that money out there, 
tenants would be able to be organized, whereas right now, we 
had VISTAs; if we did not have the VISTA Program in the last 4 
years, a lot of people would have lost their homes.
    Chairwoman Waters. This NSPIRE Demonstration, what is that 
all about? Is that about inspections? What is happening with 
that?
    Ms. Collins. It is another gimmick that HUD just comes up 
with. And I say that to say this because the new NSPIRE model 
gives the owner the opportunity to self-inspect. We are against 
the self-inspection because there is no number, there is no--it 
is not counted, when they self-inspect. Now, they are 
inspecting units from 30 percent to 50 percent.
    We do not understand the logistics of what they are trying 
to do. It is like, of all the recommendations that NAHT has 
given them over the years, they have only honored one, and that 
was the civil monetary penalty, which they still have not 
honored. They gave a property and Tridge Rotary in Texas, they 
gave them a civil monetary penalty, but then they took it back.
    Chairwoman Waters. Well, let me just tell you, that I have 
met with Ms. Pressley and I have met with Ms. Tlaib, and we 
know that you are contemplating possible legislation.
    Ms. Collins. Yes.
    Chairwoman Waters. And if this legislation is introduced 
and we work on it, it would be tough, it will deal with the 
issue, and so we are going to meet again.
    Ms. Collins. Yes.
    Chairwoman Waters. We have a meeting that is being planned 
in December where we will meet with the nonprofits who have 
Section 8 housing or HUD housing or what have you. And, so, Ms. 
Tlaib and Ms. Pressley and I are focused on this and we are 
with you.
    Ms. Collins. Thank you for that.
    Chairwoman Waters. And I yield back the balance of my time.
    Ms. Collins. Thank you.
    Chairman Clay. I thank the chairwoman for her questions, 
and for pointing out that tenants do have rights. I appreciate 
that.
    At this time, we recognize the gentleman from Colorado, Mr. 
Tipton, for 5 minutes.
    Mr. Tipton. Thank you, Mr. Chairman, and I appreciate all 
of the panel taking the time to be here.
    Obviously, housing in all of our areas, for all residents, 
is something that is critically important. I would like to be 
able to maybe expand a little bit of the conversation, because 
the focus seems to be an awful lot in urban areas, which I do 
not discount in the least. But I happen to represent rural 
America, where we do have housing issues, as well, in terms of 
being able to be addressed.
    In response to the chairwoman's question in regards to the 
NSPIRE program, I wanted to follow up on that a little bit with 
you, Mr. Cabrera. In regards to the program, it has been 
updated with the intent of being able to improve inspections, 
to know where maintenance issues arise. As a former secretary 
for public housing, what reforms should the inspection process 
take into account, especially when it applies to rural America?
    Mr. Cabrera. I think NSPIRE needs some meat on the bones. I 
think one of the problems that both HUD and the stakeholder 
community has, including my colleagues to the right, is that it 
seems a little bit rudderless right now. It would help to have 
a rudder. It would help rural America as much as it would urban 
America.
    I remind people all the time that Section 8 and public 
housing are indispensible to rural America. They are not just 
urban products. It is really amazing, but the two States with 
the largest number of counties are Texas and Georgia, and those 
counties all have public housing authorities, and they are 
generally small. There are generally fewer than 15 or 20 units. 
And it is important that they get some guidance with respect to 
how this will all work.
    I think the other thing is they just have to figure out a 
way for people to have a remedy in the event that there is an 
adverse decision. So, if someone disagrees, they have to have a 
place to go.
    Mr. Tipton. We have had testimony in regards to having 
tenant participation. In terms of developing that rudder, that 
outreach, who else should HUD reach out to?
    Mr. Cabrera. That is a very big group, Congressman. Owners 
are an indispensible part of that conversation. I read the 
legislation, the draft discussion legislation. Congressman 
Lawson's bill has a lot in it that is very worthwhile to 
discuss, and then there is a lot that I can tell you 
affirmatively, stakeholders will have significant commentary 
upon. So, given that it is the first step in the process, it is 
a hard question to answer.
    Mr. Tipton. And we had had the comments in terms of self-
inspection. I wanted to be able to maybe get your sense a 
little bit. Given the territory that I represent, we have 
54,000 square miles of Colorado. For the most part, there is no 
easy way to be able to get from here to there without going 
over three mountain passes to get into those areas.
    Are there some benefits to self-inspection that we might be 
able to employ, particularly in the rural areas?
    Mr. Cabrera. The self-inspection is used in other facets of 
ownership that do not have to do with affordable housing, but 
they always come up with some other mechanism to ensure the 
accuracy of the inspection. That would be helpful.
    The other thing to keep in mind is it is not always just 
self-inspection. Generally, there is a planning and zoning or 
building department involved for some jurisdictions. A county, 
a city, if it is in fact an incorporated city, and having 
coordination with those codes is important, as well.
    Most Federal inspection criteria depends heavily upon what 
either local codes say or State codes say. It is not entirely, 
or even mostly, a Federal question. And, so, so much of that 
has to do with how you articulate that and what we mean by 
self-inspection.
    I can easily see the other side of that coin. But just to 
say if I were a tenant and it would be entirely ownership that 
is inspecting, that would cause me incredible stress. But I do 
not think that is what anybody has in mind.
    Mr. Tipton. Okay. I really appreciated my colleague, Mr. 
Luetkemeyer, kind of encapsulating the variety of challenges, 
again, that you just alluded to in terms of some of the costs 
that are associated with developing affordable housing. In a 
lot of our resort communities, particularly, based off tourism, 
they had not even really planned, had any kind of a plan, to be 
able to develop it.
    Could some of the maintenance issues actually maybe help 
some of that dilemma that we face in those areas?
    Mr. Cabrera. Yes, I think they are suffering from the same 
challenges as public housing authorities with a capital need 
generally. And when it comes to a lot of those housing units in 
your area of Colorado, which I am tacitly familiar with, I will 
say that some of those units are Low-Income Housing Tax Credit 
units and they work under a different regimen.
    Mr. Tipton. Okay. Thank you.
    Thank you, Mr. Chairman.
    Chairman Clay. You are welcome.
    And I am now going to recognize the gentleman from 
Missouri, Mr. Cleaver, who is also the Chair of our 
Subcommittee on National Security, International Development 
and Monetary Policy, for 5 minutes.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I am going to direct this to you, Ms. Rollins. About 10 
years ago, I was with a group in London, and while there, we 
decided to try to meet with what would be comparable to the 
Housing Department of London, mainly in what is called Old 
London. One of the places we received a lot of information on 
was a 24-story tower called Grenfell Tower.
    And, so, here in Washington, in my little apartment across 
the street in June of 2017, I was looking at the news and all 
of a sudden, they show this fire at the Grenfell Towers. And if 
you have not seen it, you ought to pull it up. You would wonder 
how anybody got out of it alive. And to be sure, 70 people died 
in that fire. Even today, there are arguments over what caused 
it. Somebody said, cyanide something, and somebody else said, 
electrical fire with a freezer, and all kinds of things.
    But even while I was back here, I got angry about it, 
because I used to live in public housing. I am just thinking, I 
wonder if there were ongoing inspections, and maybe more 
significantly, when I bring it home, I wonder, are there 
standardized inspections, and wouldn't we be better off if we--
I lived in public housing, self-inspection, all that, so I am 
talking experientially. No sociology book. I am talking about 
living there.
    Do you think we need to have standardized inspections?
    Ms. Rollins. We have to have some standard in inspections. 
In St. Louis, I mentioned we have 92 municipalities. So, you 
have unincorporated St. Louis County doing inspections, you 
have other communities doing inspections, and no one is doing 
it the same way.
    In the City of Wellston, there was so much confusion, 
collusion, whatever we would like to call it. An inspection was 
done, but it was never done, but it was paid for by the housing 
authority. And that is a crime. We have to have standardized 
inspections that make sense and that everybody can be on the 
same page with.
    We also have opportunities for ordinances that say if a 
private owner develops a building as, for instance, TEH, and 
they are condemned--TEH buildings were condemned--that company 
should pay for the relocation of those individuals. So, I think 
there are ways to work through these issues with standardized 
inspections, with ordinances that put the responsibility back 
on the owner.
    And I would just like to make a comment in regard to the 
cost of doing housing. I also think that some of the 
astronomical developer fees that are being taken in today's 
environment are also very negative, as well. But I would say we 
definitely need a standard that makes sense for inspections.
    Mr. Cleaver. Thank you.
    Mr. Chairman, I am going to yield back.
    I would encourage anybody, particularly my colleagues, if 
you get a chance tonight, to look up that fire online. It will 
remind you of 9/11, the way that building is just completely 
destroyed. I keep wondering, can it happen here, and the sense 
I get is a resounding yes.
    Thank you, Mr. Chairman.
    Chairman Clay. Thank you, and I thank the gentleman.
    Now, the gentleman from Tennessee, Mr. Kustoff, is 
recognized for 5 minutes.
    Mr. Kustoff. Thank you, Mr. Chairman. Thank you for 
convening today's hearing, and thanks to the witnesses for 
appearing this afternoon.
    Mr. Cabrera, with your experience at HUD, can you talk to 
us about the Rental Assistance Demonstration, the effectiveness 
over the last 6 or 7 years since its creation? I guess, in 
essence, do you think it has met its goal of preserving 
affordable housing?
    Mr. Cabrera. I think it has met its goal of preserving 
affordable housing, and I think it has met its goal of creating 
units that better serve its communities and its residents.
    Mr. Kustoff. Are there other ways that Congress could be 
looking at more ways to include private sector funding for 
public housing?
    Mr. Cabrera. For one, the Cantwell-Young bill in the Senate 
would--a corollary in the House would be terrific.
    The tools that we now use to develop affordable housing do 
not necessarily emanate from HUD. They emanate from the 
Internal Revenue Code, specifically Section 42 and Section 
142--143. And, so, at the end of the day, leveraging those 
mechanisms which really invite private investment is important.
    RAD works, mostly because it allows a housing authority 
that applies for a version of something called a disposition, a 
conversion from Section 9, which is public housing, to some 
form of Section 8. So, it is either going to be Project-Based 
vouchers for a term of 20 years, or it is going to be a HAB 
contract, and that makes it financially supportable to do the 
deals.
    So much of affordable housing has to do with whether a 
particular, discrete transaction pencils out whether it makes 
financial sense not in one year, but over the entire life of 
the development. RAD makes that possible for purposes of all of 
these conversions.
    Mr. Kustoff. In the questioning from Ranking Member 
Stivers, you talked about technology and the technology being 
outdated. You talked specifically about still using Excel. That 
is one issue.
    Is employee turnover also an issue? And if so, to what 
effect? And I mean turnover at HUD.
    Mr. Cabrera. It is not just an issue. It is an Enterprise-
wide, Federal crisis, but it's particularly acute at HUD.
    When I was at HUD, as I recall, we had a total of 8,800 
employees. Approximately 40 percent of those folks worked in my 
world. And that went up to 9,300 employees between 2008 and 
2016.
    For a variety of reasons, not the least of which is the 
aging of the Federal workforce, we are down to 7,800, perhaps 
7,700 employees at HUD. And as I commonly say when this comes 
up in the conference setting, when I was in office--it has been 
fully 12 years since I resigned, come January--60 percent of 
HUD was qualified to retire. And that number has only gone up.
    So, part of the issue here with HUD is it is suffering 
through the weight of a lack of physical capacity within its 
personnel pool.
    Mr. Kustoff. Thank you. If I could, one last area, and that 
is as it relates to lead hazards in housing. Can you talk about 
the progress that HUD has made maybe since your time at HUD to 
now, what progress has been made and what you have seen?
    Mr. Cabrera. One of the unwritten success stories, however 
uneven the successes have been, has been Federal efforts in 
lead-based paint remediation. That history begins in 1973 and 
it progresses in 1978. And what it actually caused was in a 
single-family home setting and in a multi-family home setting, 
assuring that either you receive notice that there is a lead-
based paint problem; or if it is acute enough and it is a 
property prior to January 1, 1978, you remedy it. It succeeded 
particularly well with public housing because most public 
housing units were constructed between 1937 and 1984.
    The only asterisk, the Roger Maris asterisk, to that answer 
is, as we have recently learned in the last 18 months, with 
public housing authorities--authorities plural--is that there 
have been incidences here and there, spot incidences, where 
certain authorities have misrepresented their compliance with 
lead-based paint remediation. That is a problem. It is a 
significant problem. I do not put that on the HUD pile; I put 
that on the public housing authority pile, and I do not include 
Ms. Rollins.
    Mr. Kustoff. Thank you. I yield back.
    Chairman Clay. Thank you.
    And we now go to the gentleman from Florida, Mr. Lawson, 
for 5 minutes.
    Mr. Lawson. Thank you, Mr. Chairman, and I would like to 
welcome you all to the committee. I really appreciate the work 
that you all do out there.
    My father-in-law was involved in a government housing 
facility along with another university professor, and they used 
to spend an inordinate amount of time taking care of the 
facilities and providing activities and so forth for the youth. 
And I, myself, from being a college coach and playing a little 
bit of professional ball, I used to go into the facilities 
during the summer months and set up programs just for kids to 
have something to do on the playgrounds and so forth, and so I 
know the work.
    But what has really bothered me in recent years is, because 
I spent a lot of time in these facilities, is it is really 
incomprehensible the way that HUD has responded to these 
organizations that have taken over most of these housing 
complexes. For instance, and I will just tell you that one of 
the residential facilities, Eureka Garden, Valencia Way in 
Jacksonville, has suffered immensely for several years due to 
mismanagement and unsafe living conditions, including mold, 
sewage, and all of the other things that go along with them.
    Recently, because of a gas outage, many of them had to have 
food brought in because they were unable to cook in their own 
facilities. And then at the same time, which was very alarming, 
in order for them have to have hot showers, and a bath for 
their kids, they had to go into the parking lot, with trailers 
and stuff there, which I really thought was very inhumane for 
them to have to do that, especially women and children, early 
in the morning before they get ready to go to work or school.
    And, so, I have sponsored H.R. 3745, the HUD Inspection 
Oversight Act, that would strengthen the HUD inspection 
process, providing more oversight and transparency. It almost 
seemed like there was a wall going on between HUD and these 
housing facilities. I have had the Secretary down in the 
Jacksonville area to review some of the conditions and so forth 
that has taken place. They will say that they are working on 
them, and this has been 3\1/2\ years, and they are still 
working on them.
    It is unfortunate that you would even see a Secretary 
propose cutting millions of dollars from oversight for these 
facilities, looking at what exists. And you actually wonder, 
who are they working for? Are they really trying to help people 
really in these facilities have a quality of life that all of 
them should have? Because the government is not broke, and the 
government has--it is as if they do not pay any attention to 
what we send them from Congress.
    But what they do is they are trying to save money on the 
very poor people who are struggling to keep a roof over their 
heads and provide for their families. A lot of these 
individuals that they are dealing with are women with kids, 
single heads of households, who are working, and doing the very 
best that they can. And I know it sounds more like a 
dissertation for most of you because you all see what happened 
in these inner cities and so forth.
    My question is, in your relationship--I don't have much 
time, so I will start out with Ms. Rollins, and I might not get 
any further--with HUD and bringing these dilapidated conditions 
before them, what takes them in another direction instead of 
trying to help people in need?
    Ms. Rollins. I do not think that HUD sometimes has the 
mindset to really focus on what needs to happen. We are in the 
trenches by ourselves. As you say, it has taken 3\1/2\ years to 
really accomplish nothing. And since I have been at the Housing 
Authority for 11 years, I face the same situation. I am not 
sure why. I think it is very easy to not be involved and to not 
care when you are not there. And it is easy to put all of this 
responsibility on the backs, as you say, and that is so 
correctly put, of our tenants.
    So, there has to be a way for Congress to make HUD step up 
to the table and step up to the plate and do what they need to 
do for the residents that we are involved with. You should not 
have to live the way we are living with these clients 
currently. It is abysmal, what we are going through. There 
should not be a Wellston. There should not be any of the 
localities that we have been talking about so far. So, we 
really have to put the onus on HUD to make a difference.
    Chairman Clay. The gentleman's time has expired.
    I now recognize the gentleman from Tennessee, Mr. Rose, for 
5 minutes.
    Mr. Rose. Thank you, Chairman Clay and Ranking Member 
Stivers, for holding this hearing.
    I may be going out on a limb here, but I think we can all 
agree that when it comes to HUD-assisted housing, we want 
residents to live in housing that is safe, decent, and 
sanitary. But just to be safe, I would like to start off by 
asking for a show of hands from the witnesses here today, who 
here believes that every resident in HUD-assisted properties 
should live in housing that is safe, decent, and sanitary? Show 
of hands, please?
    Great. We are off to a good start.
    When it comes to taxpayer dollars, we have a responsibility 
to ensure that every dollar spent by the Federal Government is 
used wisely, efficiently, and for its intended purpose. Too 
often, my colleagues on the other side of the aisle claim that 
the answer to mismanaged Federal programs is providing more 
funding, more inputs.
    Yesterday, the Washington Post reported on a Federal 
program, the HUBZone program, that actually funneled hundreds 
of millions of taxpayer dollars into Washington, D.C.'s richest 
neighborhoods at the expense of poorer areas because the 
program was using unadjusted and outdated data for years.
    Throwing more money at a problem does not solve the 
underlying problem. If there is a problem with the program's 
outcome, maybe, just maybe, it is because we, in Congress, have 
neglected our oversight responsibilities as they relate to the 
funds we have already appropriated.
    The answer is also not a total government takeover of local 
problems. Just yesterday, the House voted on and passed another 
continuing resolution instead of a full funding bill for Fiscal 
Year 2020 because Congress cannot agree to get that job done in 
a timely manner. We have not even passed a bill to fully fund 
our military for Fiscal Year 2020, one of the most basic 
constitutional responsibilities of the Congress.
    Yet, there are some who make the case that the Federal 
Government needs more on its plate. I disagree. There are 
bipartisan programs that have provided affordable housing to 
millions of Americans, and we should look at what can be done 
to strengthen and possibly expand these programs. For instance, 
between 1986, when the Low-Income Housing Tax Credit was first 
enacted, and 2013, more than 13.3 million people lived in homes 
financed by the LIHTC housing credit.
    I know that in Tennessee, the Tennessee Housing Development 
Agency has benefitted from and supports this program. The LIHTC 
overall has helped build or rehabilitate more than 3.2 million 
affordable housing units, leveraging more than $190 billion in 
private investment to do so.
    Mr. Cabrera, should policymakers change their thinking 
about how assisted housing in America works? Should we do more 
to encourage private investment in the production and 
preservation of affordable housing?
    Mr. Cabrera. If markets do the work they can do with a 
private-public partnership, it works best. And if that is the 
case, that would include RAD conversions. That would include 
LIHTC. That would include private activity bonds with a version 
of LIHTC called the 4 percent LIHTC. And that would include, 
candidly, the HUD budget. So much more can be done if you let 
folks do it.
    We always will get the bad story. The answer is to always 
work towards solving the bad story, but remembering there are a 
lot of good stories. And you just mentioned a huge one, which 
is roughly 13 million residents live in LIHTC units now after 
33--well, actually it is technically 31 years.
    So, at the end of the day, yes, they do it quicker, they do 
it better, and they do it less expensively. That is not to say 
that public housing does not have a place in some places. 
Public housing is the only recourse. It has to be preserved.
    Twenty-five percent of public housing residents right now 
are elderly people. Another 18 percent, as I recall, I might be 
a bit off, are disabled. That is an important thing to 
remember. A good many public housing residents have single-
parent households that rely on public housing. It is very 
difficult for me to conceive of a world without some form of 
public housing.
    Mr. Rose. Thank you. And I just hope that as we look at 
this issue, we don't just seek to measure inputs, but that we 
search for ways to measure outcomes.
    Mr. Cabrera. I agree.
    Mr. Rose. Thank you, and I yield back.
    Chairman Clay. Thank you, and just to point out to my 
friend from Tennessee, the article that you cited today was on 
a program administered by the Small Business Administration 
called HUBZones, which relied on faulty data from HUD.
    At this time, I recognize the gentlewoman from Michigan, 
Ms. Tlaib, for 5 minutes.
    Ms. Tlaib. Thank you so much, Mr. Chairman. Thank you all 
so much for being here and for your incredible advocacy to 
protect a lot of my neighbors at home who are renters and 
depend on quality housing.
    There are a number of changes that have been made, I think 
currently with HUD. One that I am very concerned about, and I 
just want to put it in the record is changing and removing 
disparate impact as a way to show housing discrimination within 
HUD. I know I have submitted comments, and I am very concerned 
about Dr. Carson and this Administration's move to try to make 
it impossible for people to prove housing discrimination.
    The other is HUD's move away from their current mission 
statement. They are removing words like, ``pushing to meet the 
need for quality, affordable rental homes.'' They want to 
remove that from the mission statement.
    They also want to remove from the mission statement, 
``utilize housing as a platform for improving quality of 
life.'' Again, I'm very concerned in that move.
    I also, Mr. Chairman, would like to submit for the record 
an article that is entitled, ``Under Ben Carson, More Families 
Live in HUD Housing That Fails Health and Safety Inspections.''
    Chairman Clay. Without objection, it is so ordered.
    Ms. Tlaib. Thank you. Since 2016, we have seen a 30 percent 
increase in HUD properties failing inspections, and that is 
more than 1,000 properties not only missing smoke detectors, 
but other life-threatening issues regarding the inspection.
    I want to talk a little bit about my district. Right now, 
we are working with a constituent whose building has been 
infested with bedbugs 9 times. The building is operated by HUD. 
Bedbugs have developed a resistance that makes them almost 
impossible to kill, very difficult to kill, and very expensive.
    Recently, Detroit was actually named the fifth most active 
city for bedbug activity, noting that bedbugs have been popping 
up with regular kinds of patterns in public housing. It is very 
alarming that HUD's current physical inspection protocol has 
not evolved since its adoption 21 years ago.
    Ms. Rivers, what flaws do you see currently in HUD's Real 
Estate Assessment Center (REAC), especially when it comes to 
bedbug infestation, as I previously described?
    Ms. Rivers. One of the flaws that I see for myself as a 
president for the tenant association is not allowing the 
tenants to participate in the REAC inspections. If they allowed 
the tenants to participate, such as for my community, where I 
know we have a lot of toxic mold, a lot of rats, and an 
infestation of roaches, we would be able to point these things 
out. So, that is a major flaw that I see in reference to the 
REAC.
    Ms. Tlaib. You talked a little bit about having the 
residents involved. I know I am going to be working with 
Chairwoman Waters, as well as my colleague from Massachusetts, 
Representative Pressley, about having more support and capacity 
support for our tenants' associations that really help us hold 
a lot of folks accountable, including HUD and other folks who 
are involved in making sure there is quality.
    But what would that look like to actually have tenants be 
involved in shaping what the Real Estate Assessment Center 
would do?
    Ms. Rivers. It would allow the tenants to do a petition to 
trigger an inspection. So, it is organizing, it is working 
together in the community, it is doing petitions. That is one 
way.
    Ms. Tlaib. So, it's basically a way to inform the Federal 
Government that there is a problem here?
    Ms. Rivers. Correct, and it would trigger an inspection, a 
REAC inspection.
    Ms. Tlaib. So the complaint system online does not work?
    Ms. Rivers. It does not work. I have been doing it for year 
after year after month after month. The PBCAs are a waste of 
residents' time. The protocol that HUD wants the residents to 
go through is a waste of time.
    Ms. Tlaib. Yes.
    Ms. Rivers. It is a waste of time. It just does not work.
    Ms. Tlaib. And there is a lack of urgency when folks 
submit, yes?
    Ms. Rivers. Yes.
    Ms. Tlaib. This question is for Ms. Collins--and thank you 
so much for being here--I know there was a tenant survey that 
happened and kind of a sample like Real Estate Assessment 
Center-inspected properties. What were you trying to address 
there? What was included in the survey, and what was effective 
in addressing some of the concerns of the residents that you 
heard?
    Ms. Collins. We were trying to bring back the tenants' 
survey for the simple reason of some of the issues that 
Shalonda just mentioned. The tenant association would be able 
to come along with the REAC inspector and inspect the 
apartment, along with the person who was inspecting. Because 
the tenants are the ones who live there, they know exactly what 
is going on in the building--instead of doing different things 
that HUD wants us to do.
    And another thing, the survey would also keep the owners 
accountable and not let them get away with saying, we did this 
and we did that. Whereas, the tenants themselves live there, 
and they are the ones who know what is going on in that 
building.
    Ms. Tlaib. Thank you, Ms. Collins. I agree with you.
    Chairman Clay. Thank you.
    The gentleman from Wisconsin, Mr. Steil, is recognized for 
5 minutes.
    Mr. Steil. Thank you, Mr. Chairman, and thank you, Ranking 
Member Stivers. I appreciate you holding today's hearing. I 
think what we are discussing is a really important topic.
    I have a question for you, Mr. Cabrera. We have had a lot 
of discussion in this committee, and in particular over the 
course of this year, about the importance of funding and how 
that is going to make improvements.
    I want to step back and also discuss what other meaningful 
actions we can take to solve the public housing, and particular 
focus on some of the local housing authorities that seem to 
cause significant failures to their residents. For example, the 
New York City Housing Authority, the largest housing system in 
the country, has been criticized for lead paint hazards, mold, 
heating failures, and in particular, chronic mismanagement. It 
seems the New York City Housing Authority has failed its 
400,000 residents for years, endangering their health and 
safety. The Authority is now working through an agreement with 
HUD to painstakingly address some of its long-standing 
problems.
    Could you highlight a few of the steps that we should take 
to ensure that local housing authorities, like the New York 
City Housing Authority, properly maintain their public housing 
units and how we could prevent similar failures from happening 
across the United States?
    Mr. Cabrera. NYCHA is in a class by itself. I cannot 
ascribe NYCHA's issues, and have them, on everyone else, and I 
will explain why.
    NYCHA has 185,000 public housing units. NYCHA has 17,000 
units called Mitchell-Lama units. They are State units. NYCHA 
has another 90,000 Section 8 vouchers.
    One out of every 12 New Yorkers lives in a NYCHA property. 
And, on top of that, there are 5 boroughs, and they have 
housing, as a general rule, that dates back to the Roosevelt 
Administration. That is how that housing began.
    Now, up until the 1980s, or actually the 1990s, NYCHA, as a 
general rule, was a pretty well-performing property manager. 
And even during my time at HUD, it was still well-performing, 
just not as well-performing as it had been in prior decades.
    I do not know what has happened since then. I think NYCHA's 
biggest--NYCHA has a bunch of--I have to put the problem into 
pots. NYCHA has 11,000 employees. I want to say that again: 
NYCHA has 11,000 employees. That is fully one-third more than 
HUD. That is an issue.
    NYCHA has a difficult time getting work done because there 
are competing trades that want the work, so there are 12 
different collective bargaining agreements at NYCHA. That is a 
very difficult thing for management to juggle.
    NYCHA has a political setting, unlike nearly any other city 
in the country, other than possibly San Francisco. And what I 
mean by that is there is a--the city council is--and forgive 
me--
    Mr. Steil. I am going to reclaim a little time here, 
because I only get 5 minutes.
    Mr. Cabrera. Sorry about that.
    Mr. Steil. No, no, no. I think what you are describing is 
some of the bureaucratic morass--
    Mr. Cabrera. Yes, I am. Thanks.
    Mr. Steil.  --that we are seeing there. I am going to pause 
there.
    Mr. Cabrera. Most public housing authorities do not have 
that.
    Mr. Steil. I am going to pause there. I think you 
identified a great thing that we can work on. I want to shift 
gears and ask you a question on lead.
    Mr. Cabrera. Sure.
    Mr. Steil. This is an issue that impacts both public 
housing and non-public housing across the United States. I want 
to focus in on public housing in particular.
    I held a roundtable recently in Wisconsin with the EPA 
Administrator and local leaders, discussing lead hazards for 
children. Can you comment, since your time at HUD, how we have 
done on making progress on lead hazards, paint, and in water in 
particular, as it relates to public housing?
    Mr. Cabrera. Overall, on housing, with respect to issues 
having to do with friable services, services that are cracked, 
HUD has for the most part done a terrific job.
    Now, has it done a perfect job? Absolutely not. What does 
that mean? It is very difficult for HUD to react well when they 
do not get good data, and very often, they accept bad data. 
That is part of the problem.
    I am not including, by the way, anything that is lead-based 
and is not dealing with paint, so I am talking about surfaces 
within living units that are covered by the one Act that has 
been amended 3 times.
    So, my short answer, if that is a short answer, is they 
have done a pretty good job with oversight. They have done a 
pretty good job in posting notices in most circumstances. 
Everything can be improved. But on the paint side, they have 
done well.
    Mr. Steil. I see my time has expired. I appreciate your 
time, and I yield back.
    Ms. Tlaib. [presiding]. The gentleman from Texas, Mr. 
Gooden, is recognized for 5 minutes.
    Mr. Gooden. Thank you, Madam Chairwoman. We have heard a 
lot today, and I really appreciate you all for being here.
    I wanted to kind of continue with Mr. Cabrera, and then I 
have a quick question for Ms. Collins.
    Do you think that the resources that HUD has are 
sufficient, or do you think that we face just a problem with 
implementation in how they utilize those resources, or is it 
both?
    Mr. Cabrera. It is both.
    Mr. Gooden. Feel free to elaborate.
    Mr. Cabrera. It is both. HUD has been underfunded for the 
better part of 25 years in one way, shape, or form. There are a 
lot of reasons for that. I don't want to go into them, mostly 
because they are so varied, not because I don't want to talk 
about them. It would take us several hours, and you definitely 
do not want to hear me on that.
    Here is the problem. Regardless, there are housing 
authorities that own units. For the record, HUD does not own 
units. HUD owns very few units. Housing authorities own units. 
They own the real estate. They own the product. That is who 
owns the units. Owners own units. HUD provides or allocates the 
resources you all provide them. So, at the end of the day, when 
you tell a housing authority that has a capital need your 
budget is being cut, or in fact done away with, which is a 
concern, a deep concern of mine, you are basically telling a 
resident they are going to have to either not get something 
solved, like bedbugs, or they are going to have to wait. That 
is a bit of a problem.
    On the operational side, HUD has huge room for improvement. 
But part of their problem is what we alluded to earlier today, 
which is that they have a capacity problem because of 
retirements and departures. And every time someone departs, 
then someone is doing three jobs. That means that nothing can 
really get done well. Everybody becomes a jack of all trades 
and a master of none.
    Mr. Gooden. Thank you.
    And Ms. Collins--thank you for being here, by the way--I 
would like to hear more regarding whether you believe there is 
appropriate recourse or an avenue for tenants to report and 
inform HUD about housing requirement urgent maintenance or 
repair, meaning--obviously, I have heard there are issues with 
it, but do you think that what we have on the books is 
appropriate, or is it just not being utilized like it needs to 
be?
    Ms. Collins. Thank you for that question. I just don't 
think that it is being utilized properly. And, as I said 
earlier, if they had tenant participation in these buildings, 
you won't have that many problems. Because, first of all, like 
I said earlier, and I continue to say this, tenants are the 
ones who live there, so who better to ask these questions but 
the tenants? Involve the tenants somewhere in this aspect of 
planning or whatever, as we have been asking of HUD for many of 
years, to continue to respond and listen to the tenants. You 
don't have to take everything the tenants say, but let's just 
give you--
    NAHT has given recommendations time and time again that 
make a lot of sense, but to HUD, it is not making any sense to 
them. And where do we go from there? We see these deplorable 
conditions and we still not hold them accountable. Someone has 
to be accountable.
    You are looking at children living in mold. And as some of 
the pictures showed, there is a child who was there, and 
because of the mold, the back of his head was almost like 
embedded with whatever it was. But whose fault is that? We see 
mold. We see asbestos. We see all of this stuff.
    And REAC, they have to do a better job and they are not 
doing it. Because when they go to inspect, if you had tenant 
involvement and that 514 money was in there for the tenant 
association and organization to organize, you wouldn't have 
that problem. So, we need that 514 money. We need tenants to 
organize and do a better job and help HUD. We are not working 
against HUD. We want to work with you.
    Mr. Gooden. Thank you.
    Ms. Collins. Thank you.
    Mr. Gooden. Thank you all for being here, and I yield back.
    Ms. Thrope. Representative Tlaib, if I may address a 
question related to lead that was addressed to Mr. Cabrera 
earlier, thank you very much.
    I just want to make sure just to address the--there is a 
gaping hole right now with respect to lead paint inspections 
among the federally-assisted housing stock, and that is that 
voucher units, all voucher units across the country, and units 
that receive less than $5,000 in Project-Based Section 8 
funding, are actually--there is no requirement. There is no 
risk assessment for lead prior to a family moving into a unit, 
which means right now it takes a child exposed to lead paint, 
and a child who gets poisoned, before an inspector comes in and 
does a lead assessment, and this is impacting hundreds of 
thousands of voucher and Project-Based Section 8 families 
around the country.
    The Lead-Safe Housing for Kids Act could easily address 
some of these issues by actually standardizing lead-based paint 
assessments among all of the Federal housing programs.
    Thank you.
    Ms. Tlaib. I just wanted folks to know that many of my 
colleagues have a caucus vote. That is why they are not here. 
It is not because they don't want to listen to you all, and 
they do have copies of your testimony.
    But I would like to thank all of our witnesses for their 
testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing is now adjourned.
    [Whereupon, at 3:52 p.m., the hearing was adjourned.]

                            A P P E N D I X



                           November 20, 2019
                           
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre></body></html>
